App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
VBS DISTRIBUTION, INC.,
AKA VBS Home Shopping, a
California corporation; VBS
TELEVISION, a California
corporation,
Plaintiffs-Appellants,

No. 18-56317
D.C. No.
8:16-cv-01553-CJCDFM
MEMORANDUM*
(Filed Apr. 30, 2020)

v.
NUTRIVITA LABORATORIES,
INC., a California corporation;
NUTRIVITA, INC., a California
corporation; US DOCTORS
CLINICAL, INC., a California
corporation; ROBINSON
PHARMA, INC., a California
corporation; KVLA, INC., a
California corporation; TUONG
NGUYEN, an individual domiciled in California; TRAM HO,
an individual domiciled in California; JENNY DO, AKA Ngoc
Nu, an individual domiciled in
California,
Defendants-Appellees.

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
Appeal from the United States District Court
for the Central District of California
Cormac J. Carney, District Judge, Presiding
Argued and Submitted February 12, 2020
Pasadena, California
Before: BYBEE, COLLINS, and BRESS, Circuit
Judges.
Appellants VBS Distribution, Inc. and VBS Television (collectively, VBS) appeal the district court’s grant
of summary judgment to Appellees on VBS’s claims for
false advertising, trade dress infringement, misappropriation of trade secrets, breach of fiduciary duty, and
civil conspiracy. Because the parties are familiar with
the facts, we will not recite them here. We affirm in
part, reverse in part, and remand for further proceedings.
1. The district court granted summary judgment to
the Supplement Defendants on VBS’s false advertising
claim because it found “no evidence [that VBS] suffered any economic or reputational injury” from the
“100% tu duoc thao thien nhien” (translated as “100%
natural herbal”) statement. The Supplement Defendants allegedly made this statement about their own
Arthro-7 diet supplement product in a 2013 newspaper
advertisement.1

1

The district court treated VBS’s false advertising claim as
based solely on this 2013 advertisement. In its reply brief, VBS
asserted that the Supplement Defendants also made the “100%
tu duoc thao thien nhien” statement in brochures and on the Arthro-7 box. Because VBS did not raise this issue until its reply

App. 3
When a party seeks damages for an allegedly false
advertisement under the Lanham Act, “actual evidence of some injury resulting from the deception is an
essential element of the plaintiff ’s case.” Harper
House, Inc. v. Thomas Nelson, Inc., 889 F.2d 197, 210
(9th Cir. 1989) (emphasis in original). Summary judgment is thus proper when the plaintiff “fail[s] to present any evidence of injury resulting from defendants’
deception.” Id. Later decisions have not altered this requirement. Most recently, in TrafficSchool.com, Inc. v.
Edriver Inc., 653 F.3d 820 (9th Cir. 2011), we held that
the plaintiffs could not prevail under the Lanham Act
because they “didn’t produce any proof of past injury
or causation.” Id. at 831 (emphasis in original). Nor did
our discussion of the damages issue in TrafficSchool.com turn on the phase of the proceedings.
In this case, and to demonstrate injury, VBS came
forward with a declaration from its CEO stating that
These false Advertisements have deprived us
from being able to fairly compete in the marketplace, and have diverted sales away from
us. When customers see the two similar products they will be persuaded by the content on
the packaging, such as the false claims made
in the Advertisements. The false claims cause
consumers to believe their product is superior
brief, it is waived. See, e.g., United States v. Kama, 394 F.3d 1236,
1238 (9th Cir. 2005). But even if we were to consider the assertions in VBS’s reply brief, the result would be the same because
VBS has not brought forward evidence sufficient to create a genuine dispute of material fact that the allegedly false statement
caused injury to VBS.

App. 4
to ours, and that causes consumers to purchase their product over ours.
This declaration is the only evidence of injury that VBS
references in its opening brief in claiming that “[t]his
is all that VBS had to show in order to survive summary judgment on the likelihood of injury element of
its false-advertising claim.”
VBS is not correct. The CEO’s declaration does not
create a genuine dispute of material fact that the
“100% tu duoc thao thien nhien” statement injured
VBS. “A conclusory, self-serving affidavit, lacking detailed facts and any supporting evidence, is insufficient
to create a genuine issue of material fact.” FTC v.
Publ’g Clearing House, Inc., 104 F.3d 1168, 1171 (9th
Cir. 1997), as amended (Apr. 11, 1997). Here, the CEO’s
declaration is not specific to the “100% tu duoc thao
thien nhien” statement, but refers collectively to various allegedly false statements, most of which are no
longer at issue in this case. The CEO’s declaration is
also entirely conclusory in nature.
VBS’s evidence, which the dissent acknowledges is
“sparse” and “thin,” falls well short of the quantum of
evidence this court has described as “adequate . . . for
a reasonable jury to conclude that Plaintiffs suffered
actual injury as a result of Defendants’ advertisements.” Southland Sod Farms v. Stover Seed Co., 108
F.3d 1134, 1146 (9th Cir. 1997) (plaintiff came forward
with testimony from consumer survey and economics
expert); see also Lindy Pen Co. v. Bic Pen Corp., 982 F.2d
1400, 1411 (9th Cir. 1993) (plaintiff came forward with

App. 5
“credible proof of the fact of damage” based on evidence
of a wholesale distributor switching products), abrogated on other grounds by SunEarth, Inc. v. Sun Earth
Solar Power Co., 839 F.3d 1179 (9th Cir 2016) (en
banc). The dissent’s contrary approach would enable
every Lanham Act plaintiff to survive summary judgment, which is not correct.
Accordingly, we affirm the grant of summary judgment to the Supplement Defendants on VBS’s false advertising claim.2
2. When granting summary judgment to the Show
Defendants on the trade dress infringement claims,
the district court found that VBS “ma[d]e no showing
that the alleged trade dress has nonfunctional features
or a nonfunctional arrangement.” “Trade dress refers
generally to the total image, design, and appearance of
a product and may include features such as size, shape,
color, color combinations, texture or graphics.” Clicks
Billiards, Inc. v. Sixshooters, Inc., 251 F.3d 1252, 1257
(9th Cir. 2001) (internal quotation marks omitted). In
a trade dress infringement case, a court must “focus
not on the individual elements, but rather on the overall visual impression that the combination and arrangement of those elements create.” Id. at 1259.

2

In its reply brief, VBS argues that the district court erred
because proof of past injury is not required to obtain an injunction
under the Lanham Act, and VBS’s complaint seeks injunctive relief. But VBS failed to challenge the district court’s denial of injunctive relief in its opening brief, and so waived this issue on
appeal. See Kama, 394 F.3d at 1238.

App. 6
VBS presented no evidence to raise a disputed issue of fact as to whether its alleged trade dress is nonfunctional. VBS submitted two declarations—one from
a vendor and another from VBS’s CEO—that assert
that VBS’s television show has a distinctive and nonfunctional “look and feel.” But these conclusory statements do not describe how the combination of the
elements of VBS’s claimed trade dress creates a distinct visual impression. The same is true of the three
still images of VBS’s television show that VBS submitted. These images do nothing to demonstrate how the
show’s format or VBS’s lighting technique combine in
a nonfunctional way. To the contrary, the testimony of
VBS’s CEO suggests that the selection and arrangement of the elements of VBS’s alleged trade dress were
driven by functionality concerns. In light of VBS’s lack
of proof of nonfunctionality, we affirm the grant of summary judgment to the Show Defendants on the trade
dress infringement claims.
3. The district court granted summary judgment to
the Show Defendants on the misappropriation of trade
secrets claims after concluding that VBS provided “no
evidence that [its] customer lists were kept confidential,” particularly because VBS admitted that it shared
the identity of its customers with its vendors. To succeed on this element of its claims, VBS must show
merely that it took “reasonable measures to keep [the
relevant] information secret.” 18 U.S.C. § 1839(3)(A);
see also Cal. Civ. Code § 3426.1(d)(2) (requiring that
the information be “the subject of efforts that are

App. 7
reasonable under the circumstances to maintain its secrecy”).
VBS’s evidence was sufficient to create a disputed
issue of fact as to whether it took reasonable measures
to ensure the secrecy of its customer lists. Multiple declarations from VBS employees confirmed that VBS’s
customer lists are stored on computers that are password-protected. VBS requires its employees to sign
confidentiality agreements, and its employment agreements with Appellee Tram Ho obligated her to keep
VBS’s “customer lists” confidential. All these measures
indicate that VBS reasonably maintained the secrecy
of the customer lists. See MAI Sys. Corp. v. Peak Comput., Inc., 991 F.2d 511, 521 (9th Cir. 1993) (noting that
a requirement that “employees . . . sign confidentiality
agreements” can satisfy a party’s burden to take reasonable measures to “insure the secrecy” of the relevant information).
VBS’s misappropriation claims do not fail at summary judgment merely because VBS provided the
identities of its customers to its vendors. Providing alleged trade secrets to third parties does not undermine
a trade-secret claim, so long as the information was
“provided on an understanding of confidentiality.”
United States v. Nosal, 844 F.3d 1024, 1043 (9th Cir.
2016); see also United States v. Chung, 659 F.3d 815,
825-26 (9th Cir. 2011) (noting that “oral and written
understandings of confidentiality” can qualify as “reasonable measures” to keep information confidential).
VBS’s CEO testified that he orally reviews VBS’s
“policy” and “guidelines” with all of VBS’s vendors,

App. 8
including the obligation to maintain the confidentiality
of VBS’s customer information. One vendor’s declaration confirmed this obligation existed, even though no
confidentiality provision appears in the written agreement between that vendor and VBS.
In short, VBS presented sufficient evidence of its
reasonable measures to keep its customer lists secret.
Accordingly, we reverse the grant of summary judgment to the Show Defendants on the misappropriation
claims with respect to the customer lists only. Because
the district court did not address the other elements of
VBS’s misappropriation claims, neither do we. Upon
remand, the district court may determine whether
summary judgment for the Show Defendants is appropriate based on the other elements of VBS’s misappropriation claims. See Millennium Labs., Inc. v. Ameritox,
Ltd., 817 F.3d 1123, 1126 n.1 (9th Cir. 2016).
4. The district court sua sponte converted the Show
Defendants’ motion for judgment on the pleadings to a
motion for summary judgment on VBS’s breach of fiduciary duty and civil conspiracy claims, and then
granted summary judgment to the Show Defendants.
When a district court converts a motion for judgment
on the pleadings to a motion for summary judgment,
the court typically must afford the non-moving party
“10 days notice and an opportunity to present new evidence.” Cunningham v. Rothery (In re Rothery), 143
F.3d 546, 549 (9th Cir. 1998) (addressing conversion of
a motion to dismiss); see also Fed. R. Civ. P. 12(d) (noting that, when a district court converts a motion for
judgment on the pleadings to a motion for summary

App. 9
judgment, “[a]ll parties must be given a reasonable opportunity to present all the material that is pertinent
to the motion”). But no notice is required if the nonmoving party previously “had a full and fair opportunity to ventilate the issues involved in the motion.”
United States v. Grayson, 879 F.2d 620, 625 (9th Cir.
1989) (internal quotation marks omitted).
VBS was given no notice before the district court
converted the motion and granted summary judgment
to the Show Defendants. Nor did VBS have a sufficient
opportunity to “ventilate the issues” raised by its
breach of fiduciary duty and civil conspiracy claims.
Prior to the district court’s summary-judgment order,
the only judicial ruling on these claims was the district
court’s prior order granting a motion to dismiss those
claims with leave to amend. Because a district court is
limited to the pleadings when resolving a motion for
judgment on the pleadings, VBS had no reason to present evidence beyond its complaint to support these
claims. As a result, the lack of notice prejudiced VBS.
Thus, we reverse the grant of summary judgment to
the Show Defendants on the breach of fiduciary duty
and civil conspiracy claims. Because we reverse the
district court based on a procedural defect, we do not
address the merits of these claims.
AFFIRMED IN PART, REVERSED IN PART,
AND REMANDED.
Each party shall bear its own costs.

App. 10
BYBEE, J., concurring in part and dissenting in
part:
I concur in the majority’s conclusions regarding
VBS’s trade dress infringement claims, the misappropriation claims, and the district court’s conversion of
the motion for judgment on the pleadings to a motion
for summary judgment. But I disagree with the majority’s decision to affirm the district court’s grant of summary judgment to the Supplement Defendants on
VBS’s false advertising claim. Accordingly, I respectfully dissent from that portion of the memorandum
disposition.
A plaintiff ’s burden at the summary-judgment
stage to demonstrate injury caused by a false advertisement is quite lenient. As we explained in Southland Sod Farms v. Stover Seed Co., 108 F.3d 1134 (9th
Cir. 1997), “an inability to show actual damages does
not alone preclude a recovery under” the Lanham Act.
Id. at 1146 (internal quotation marks omitted). Indeed,
a false advertising claim can be successful and damages may be awarded “even without a showing of actual consumer confusion.” Id. All the Lanham Act
requires is evidence tending to show that the false advertisement “likely” caused injury. See 15 U.S.C.
§ 1125(a)(1)(A). This lenient standard “allows the district court in its discretion to fashion relief, including
monetary relief, based on the totality of the circumstances.” Southland Sod Farms, 108 F.3d at 1146; see
also 15 U.S.C. § 1117(a) (“[S]ubject to the principles of
equity,” a successful “plaintiff shall be entitled . . . to

App. 11
recover (1) defendant’s profits, (2) any damages sustained by the plaintiff, and (3) the costs of the action.”).
Although VBS’s evidence of injury is sparse, I believe it is sufficient to survive summary judgment. The
district court found that a jury could reasonably conclude that the “100% tu duoc thao thien nhien” statement is false. Assuming that finding is correct (and the
Supplement Defendants do not argue otherwise), a
jury could also reasonably conclude that the false advertisement harmed VBS’s sales of JN-7 Best. VBS’s
evidence shows that, where JN-7 Best is sold, Arthro7 is sometimes the only competing product and is displayed alongside JN-7 Best on the same shelf.1 In his
declaration, VBS’s CEO described VBS’s target consumers as Vietnamese individuals who “value vegetarianism,” so the advertisement that Arthro-7 is entirely
herbal could reasonably affect those consumers’ purchasing decisions. Because the false statement appeared on multiple Arthro-7 advertisements, including
a well-circulated Vietnamese newspaper, it is reasonably likely that the false statement induced some consumers to purchase Arthro-7 rather than JN-7 Best.
Indeed, VBS’s CEO stated that the Supplement Defendants’ “false [a]dvertisements have deprived us
from being able to fairly compete in the marketplace,
1

VBS’s evidence at summary judgment includes its third
amended complaint. Ordinarily, a complaint’s allegations are not
evidence at the summary-judgment stage. See Moran v. Selig, 447
F.3d 748, 759 (9th Cir. 2006). But where, as here, the complaint
is verified, the complaint “serve[s] as an affidavit for purposes of
summary judgment if it is based on personal knowledge and if it
sets forth the requisite facts with specificity.” Id. n.16.

App. 12
and have diverted sales away from us.” In short, although VBS’s evidence of injury is thin, I believe it is
sufficient to create a disputed issue as to whether the
false advertisement injured VBS, rendering the grant
of summary judgment improper.
In reaching the opposite conclusion, the majority
relies on Harper House, Inc. v. Thomas Nelson, Inc., 889
F.2d 197 (9th Cir. 1989), which held that “actual evidence of some injury resulting from the deception is an
essential element of the plaintiff ’s case.” Id. at 210
(emphasis omitted). The majority cites TrafficSchool.com, Inc. v. Edriver Inc., 653 F.3d 820 (9th Cir.
2011), for the same proposition. But the plaintiffs in
those cases “failed to present any evidence of injury.”
Harper House, 889 F.2d at 210; see also TrafficSchool.com, 653 F.3d at 831 (denying plaintiffs an
award of profits because they “didn’t produce any proof
of past injury or causation”).
That is not the case here. VBS has presented evidence of “some injury.” Harper House, 889 F.2d at 210.
Although VBS’s evidence does not specify the amount
of damages, that level of detail is not required to survive summary judgment. See Southland Sod Farms,
108 F.3d at 1146 (noting that a plaintiff need not “show
actual damages” to succeed on a Lanham Act claim);
Lindy Pen Co. v. Bic Pen Corp., 982 F.2d 1400, 1410-11
(9th Cir. 1993) (same), abrogated on other grounds by
SunEarth, Inc. v. Sun Earth Solar Power Co., 839
F.3d 1179 (9th Cir. 2016) (en banc) (per curiam). I
acknowledge that the evidence of injury VBS has produced may be weaker than the evidence presented by

App. 13
the plaintiffs in Southland Sod Farms and Lindy Pen.
See Southland Sod Farms, 108 F.3d at 1146 (plaintiff
submitted testimony from a consumer survey expert
and a market analysis expert); Lindy Pen, 982 F.2d at
1411 (plaintiff ’s evidence demonstrated that “at least
one wholesale distributor engaged in switching its
product”). At trial, VBS may well lose if it is unable to
provide anything stronger. But at this stage of the proceedings, we are not permitted to “weigh the evidence.”
Southland Sod Farms, 108 F.3d at 1138. Because VBS
has presented some evidence of injury, the Supplement
Defendants’ summary-judgment motion should have
been denied.2
I respectfully dissent.

2
Contrary to the majority’s suggestion, my approach does
not “enable every Lanham Act plaintiff to survive summary judgment.” Maj. Mem. Disp. at 5. A plaintiff must demonstrate a genuine dispute of material fact relating to all five elements of a false
advertising claim to defeat a summary-judgment motion. See
Southland Sod Farms, 108 F.3d at 1139. Although our precedents
have applied a more lenient standard to the element of injury, no
such leniency has been applied to the other four elements. Thus,
my approach is relevant only when, as here, the plaintiff has already demonstrated a genuine dispute as to those other elements.

App. 14
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
SOUTHERN DIVISION
VBS DISTRIBUTION, INC., )
and VBS TELEVISION, INC., )
)
Plaintiffs,
)
v.
)
NUTRIVITA LABORATO- )
)
RIES, INC., NUTRIVITA,
)
INC., US DOCTORS’
)
CLINICAL, INC.,
ROBINSON PHARMA, INC., )
)
KVLA, INC., TUONG
NGUYEN, TRAM HO, and )
JENNY DO a/k/a NGOC NU, )
)
Defendants.
)
I.

Case No.:
SACV 16-01553CJC(DFM)
ORDER GRANTING DEFENDANTS’ MOTION
FOR SUMMARY
JUDGMENT AND
DENYING APPLICATIONS TO
FILE UNDER
SEAL
(Filed Sep. 10, 2018)

INTRODUCTION

Plaintiffs VBS Distribution, Inc. (“VBS Distribution”) and VBS Television, Inc. (“VBS Television”)
brought this case against Defendants Nutrivita Laboratories, Inc., Nutrivita, Inc., US Doctors’ Clinical, Inc.,
Robinson Pharma, Inc., KVLA, Inc., Tuong Nguyen,
Tram Ho, and Jenny Do a/k/a Ngoc Nu. (Dkt. 229
[Third Amended Complaint, hereinafter “TAC”].) The
parties’ dispute arises out of their competing nutritional supplements and television programs.

App. 15
Plaintiffs allege the following thirteen causes of
action: (1) unfair competition under the Lanham Act,
(id. ¶¶ 119–23), (2) false advertising under the Lanham Act, (id. ¶¶ 124–28), (3) unfair competition, false
advertising, and deceptive trade practices under California common law and false advertising under California Business & Professions Code §§ 17500, (id.
¶¶ 129–30), (4) theft of trade secrets under the federal
Defend Trade Secrets Act, (id. ¶¶ 131–32), (5) theft of
trade secrets under the California Uniform Trade Secrets Act, (id. ¶¶ 133–35), (6) trade dress infringement
under the Lanham Act, (id. ¶¶ 136–37), (7) trade dress
infringement under California common law, (id.
¶¶ 138–41), (8) antitrust under sections 1 and 2 of the
Sherman Act, (id. ¶¶ 142–43), (9) antitrust under the
California Cartwright Act, (id. ¶¶ 144–45), (10) interference with contractual relationships under California law, (id. ¶¶ 146–47), (11) interference with
prospective economic advantage under California law,
(id. ¶¶ 148–49), (12) civil conspiracy under California
law, (id. ¶¶ 150–51), and (13) breach of fiduciary duties
under California law, (id. ¶¶ 152–53).
Now before the Court is Defendants’ motion for
judgment on the pleadings, (Dkt. 239), and Defendants’
motion for summary judgment, (Dkt. 240). For the following reasons, the motion for judgment on the pleadings is converted to a motion for summary judgment,
and that converted motion as well as Defendants’ motion for summary judgment are GRANTED.

App. 16
II.

FACTUAL ALLEGATIONS

Plaintiffs VBS Distribution and VBS Television
are two corporations with the same Chief Executive
Officer and Chairman, Joseph Nguyen. (TAC ¶ 25.)
Plaintiffs generally allege that Defendants are engaged in two unlawful schemes. The first scheme involves the false advertising of a dietary supplement.
Defendants Nutrivita Laboratories, Inc., US Doctors’
Clinical, Inc., Robinson Pharma, Inc., Tuong Nguyen,
and Jenny Do (collectively, “Supplement Defendants”)
manufacture and sell “Arthro-7,” a dietary supplement
for joint relief. (Id. ¶ 22.) Plaintiff VBS Distribution
manufactures and sells a competing dietary supplement called JN-7 Best. (Id.) Plaintiffs allege that “[t]he
general marketplace for the parties’ products is the elderly population in the United States,” along with persons of Vietnamese descent living in the United States.
(Id.) Plaintiffs allege that Arthro-7 has 60% of the market and JN-7 Best has 10% of the market. (Id.)
Plaintiffs allege that Supplement Defendants
have committed several wrongful acts “solely or primarily” to drive JN-7 Best out of the market. (Id.) Supplement Defendants purportedly make a number of
false statements in advertising Arthro-7. (Id. ¶ 44.) For
example, Supplement Defendants claim that Arthro-7
is “100% natural herbal,” that over 8 million bottles
have been sold, and that Arthro-7 has been “clinically
tested” and is “Doctor Recommended.” (Id. ¶¶ 44–51.)
Plaintiffs claim that all of these statements are false.
(Id.) Plaintiffs also claim that Supplement Defendants
wrongfully filed a lawsuit against Plaintiff VBS

App. 17
Distribution in 2013, alleging various causes of action
regarding the sale of JN-7 Best, including copyright
and trademark infringement. (Id. ¶¶ 88–103.) The lawsuit settled in 2015, and Plaintiffs now claim that it
was a baseless lawsuit brought to drive JN-7 Best out
of the market. (Id.)
The second general scheme at issue involves the
parties’ respective television shows. Plaintiff VBS Television is a television broadcast company “primarily
aimed at the Vietnamese community and is broadcast
primarily in the Vietnamese language.” (Id. ¶ 24.) VBS
Television produces a show named “DAU GIA TREN
TRUYEN HINH” (“Fight Price on Television”). (Id.
¶ 27.) The show is a live auction program which primarily auctions diamonds. (Id.) The show was created
in 2011, and in April 2012, Defendant Tram Ho became
a host of the show. (Id. ¶ 60.) When she was hired by
VBS Television, Ho allegedly signed a confidentiality
agreement agreeing “to preserve and protect the confidentiality of [VBS Television’s] proprietary information.” (Id. ¶ 62.) Ho also allegedly signed an
employment agreement agreeing to be exclusively employed by VBS Television. (Id. ¶ 64.)
Plaintiffs allege that in the spring of 2016, they
discovered that Ho was appearing on a rival television
show called “Diamond at a Surprise Low Price,” which
is produced by Defendant KVLA, a rival television station. (Id. ¶ 67.) Plaintiffs also allege that at that time,
Ho was still an employee of VBS Television. (Id.) Defendants KVLA and Jenny Do (with Tram Ho collectively, “Show Defendants”) produce the show, and

App. 18
Plaintiffs claim it is essentially identical to VBS Television’s show. (Id. ¶ 71.) For example, Plaintiffs claim
that the two shows have the same hostess, some of the
same vendors, the same technician, the same time slot
of 5:00 p.m. to 7:00 p.m., “the least to most expensive
format,” “the same auctioning of approximately 30
items each show,” and the same product price range
from $300 to $3,000. (Id. ¶ 72.) Plaintiffs also claim
that Show Defendants, through Tram Ho, have stolen
VBS Television’s employees, customer information,
and other trade secrets. (Id. ¶¶ 77–84.)
III. MOTION FOR SUMMARY JUDGMENT
Defendants move for summary judgment on Plaintiffs’ claims for trade dress infringement, trade secret
misappropriation, interference with contractual relationships, interference with prospective economic advantage, antitrust, false advertising, and unfair
competition. (Dkt. 240.)
The Court may grant summary judgment on “each
claim or defense—or the part of each claim or defense—on which summary judgment is sought.” Fed. R.
Civ. P. 56(a). Summary judgment is proper where the
pleadings, the discovery and disclosure materials on
file, and any affidavits show that “there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Id.; see also Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986). The
party seeking summary judgment bears the initial
burden of demonstrating the absence of a genuine

App. 19
issue of material fact. Celotex Corp., 477 U.S. at 325. A
factual issue is “genuine” when there is sufficient evidence such that a reasonable trier of fact could resolve
the issue in the nonmovant’s favor. Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). A fact is “material” when its resolution might affect the outcome of
the suit under the governing law, and is determined by
looking to the substantive law. Id. “Factual disputes
that are irrelevant or unnecessary will not be counted.”
Id. at 249.
Where the movant will bear the burden of proof on
an issue at trial, the movant “must affirmatively
demonstrate that no reasonable trier of fact could find
other than for the moving party.” Soremekun v. Thrifty
Payless, Inc., 509 F.3d 978, 984 (9th Cir. 2007). In contrast, where the nonmovant will have the burden of
proof on an issue at trial, the moving party may discharge its burden of production by either (1) negating
an essential element of the opposing party’s claim or
defense, Adickes v. S.H. Kress & Co., 398 U.S. 144, 158–
60 (1970), or (2) showing that there is an absence of
evidence to support the nonmoving party’s case, Celotex
Corp., 477 U.S. at 325. Once this burden is met, the
party resisting the motion must set forth, by affidavit,
or as otherwise provided under Rule 56, “specific facts
showing that there is a genuine issue for trial.” Anderson, 477 U.S. at 256. The court must examine all the
evidence in the light most favorable to the nonmoving
party, and draw all justifiable inferences in its favor.
Id.; United States v Diebold, Inc., 369 U.S. 654, 655
(1962); T.W. Elec. Serv., Inc. v. Pac. Elec. Contractors

App. 20
Ass’n, 809 F.2d 626, 630–31 (9th Cir. 1987). The court
does not make credibility determinations, nor does
it weigh conflicting evidence. Eastman Kodak Co. v.
Image Tech. Servs., Inc., 504 U.S. 451, 456 (1992). But
conclusory and speculative testimony in affidavits and
moving papers is insufficient to raise triable issues of
fact and defeat summary judgment. Thornhill Pub. Co.,
Inc. v. GTE Corp., 594 F.2d 730, 738 (9th Cir. 1979).
A. Trade Dress Infringement
Plaintiffs bring two claims for trade dress infringement: claim 6 for trade dress infringement under
the Lanham Act, (TAC ¶¶ 136–37), and claim 7 for
trade dress infringement under California common
law, (id. ¶¶ 138–41). Plaintiffs allege that the trade
dress of the “Fight Price on Television” Show is comprised of:
a) the unique style and format of the show,
b) its time slot and date selection, each week
on alternate weekdays, from 5 to 7 p.m., on
Tuesdays and Thursdays, c) the price range
for its auctioned items, ranging from about
$300 to $3000, d) its “least to most expensive”
format in which the least expensive items are
sold first, ascending to the most expensive
items at the end of the show, e) the length of
the show, 2 hours, f ) its focus on live TV auctions of jewelry, particularly diamonds, g) its
carefully selected vendors, who appear on the
show with the show’s host, h) unique and proprietary camera angle and special lighting
techniques developed by Plaintiffs using an

App. 21
Apple ipad tablet, i) the number and selection
of items sold, usually about
(Id. ¶ 27.)
“Trade dress refers generally to the total image,
design, and appearance of a product and may include
features such as size, shape, color, color combinations,
texture or graphics.” Clicks Billiards, Inc. v. Sixshooters,
Inc., 251 F.3d 1252, 1257 (9th Cir. 2001) (citation and
quotations omitted). To prove a trade dress claim, the
plaintiff must show “(1) that its claimed dress is nonfunctional; (2) that its claimed dress serves a sourceidentifying role either because it is inherently distinctive
or has acquired secondary meaning; and (3) that the
defendant’s product or service creates a likelihood of
consumer confusion.” Id. at 1258. “[A] product feature
is functional . . . if exclusive use of the feature would
put competitors at a significant non-reputation-related
disadvantage.” Qualitex Co. v. Jacobson Prod. Co., 514
U.S. 159, 165 (1995). If features of a claimed trade
dress are all functional, the plaintiff must show that
the features are combined together in a nonfunctional
way to avoid a finding of functionality. HWE, Inc. v. JB
Research, Inc., 993 F.2d 694, 696 (9th Cir. 1993). Although functionality is a question of fact, summary
judgment is appropriate if the plaintiff “ma[kes] no
showing that its [product] had non-functional features
or a non-functional arrangement.” Id. (affirming the
district court’s finding that the plaintiff ’s product, a
massage table, was functional and granting summary
judgment in the defendant’s favor).

App. 22
Here, Plaintiffs make no showing that the alleged
trade dress has nonfunctional features or a nonfunctional arrangement. The elements of the claimed trade
dress, individually and in combination, are functional.
As Joseph Nguyen, Plaintiffs’ own CEO and Chairman,
explained in his deposition, the lighting techniques
and camera angles function to make the diamonds on
the television show “sparkle” and appear brighter. (See
Dkt. 243-9 [Deposition of Joseph Nguyen, hereinafter
“Nguyen Depo.”] at 133:2–22.) Nguyen also explained
that the lighting techniques are common in jewelry
stores, which demonstrates that the techniques are intrinsic to the sale of jewelry. (Id. at 133:9–15.) With respect to the time and date of the show, Nguyen testified
that they were chosen as times that would maximize
viewership and auction purchases. (Id. at 116:13–
117:7.) Specifically, Nguyen chose the time slot between 5 p.m. and 7 p.m. because it is the time when
most people are with their family and can watch the
show together. (Id. at 119:1–10, 121:16–122:3.) Nguyen
also testified that the show sells thirty products per
episode because it is the optimal amount to sell during
a two-hour long show, and the products are priced between $300 to $3000 because the range is what the average target consumer can afford. (Id. at 122:5–124:6.)
Finally, Nguyen testified that the products are shown
in the order of lowest price to highest price to maximize the likelihood that the products will be sold, because more viewers tune in towards the end of the
show. (Id. at 124:7–20.) In sum, Plaintiffs’ CEO’s own
explanations regarding each element of the alleged
trade dress indicate that the elements are functional.

App. 23
They serve to maximize the number of viewers and the
likelihood that the viewers will purchase the auction
items. To find that these elements are nonfunctional
would “put competitors at a significant non-reputation-related disadvantage.” Qualitex Co., 514 U.S. at
165.
Importantly, Plaintiffs submit no evidence indicating that the elements of its claimed trade dress, individually or taken as a whole, operate in any
nonfunctional manner. Plaintiffs submit no survey indicating that consumers associate the alleged trade
dress with Plaintiffs. Plaintiffs do submit a declaration
from one of VBS Television’s vendors, Aleksei Lam,
who states that Plaintiffs’ show “is unique and source
identifying, with an unusual, arbitrary format and
screen appearance which is strongly and uniquely associated by customers, viewers, and those in the industry, with VBS.” (Dkt. 270 ¶ 16.) Lam further states that
“the VBS show has a unique format and overall appearance, a ‘look and feel,’ including how the screens
on the Show appear, its time slot, duration, and many
other features which are not dictated by the nature of
the products shown on the Show.” (Id.) However, this
declaration is not evidence that Plaintiffs’ trade dress
is nonfunctional. While Lam repeatedly refers to the
show as “unique,” Lam fails to describe what exactly
is unique about the show, the visual impression she
gets from the show, or any nonfunctional aspect of the
show. In other words, Lam draws a conclusion that the
show is nonfunctional, but provides no support for that
conclusion.

App. 24
Surprisingly, Plaintiffs did not even provide the
Court with a copy or clip of their television show to
demonstrate that it is nonfunctional. Plaintiffs only
submitted the following three snapshots, which are
still images from their television show:

App. 25

(Dkt. 268 Ex. 10.) These snapshots do not show how
Plaintiffs’ alleged trade dress, comprising of elements
like the lighting technique, the time and date the show
airs, the length of the show, and the prices of the products, operate together in some nonfunctional manner.
These snapshots cannot even demonstrate how things
like the length and the time of the show operate in a
way that renders the purported trade dress unique.1
Because Plaintiffs fail to provide any evidence of
the nonfunctionality of their trade dress, summary
1

Plaintiffs argue that the Ninth Circuit has held that the
“overall combination” of Plaintiffs’ trade dress is non-functional.
(Dkt. 249 at 20.) Plaintiffs refer to an order from the Ninth Circuit
issued on September 15, 2017, which reversed and remanded the
Court’s order denying Plaintiffs’ motion for a preliminary injunction. (Dkt. 83.) Plaintiffs’ argument is without merit, and overstates the Ninth Circuit’s ruling. The Ninth Circuit did not hold
that Plaintiffs’ television show was nonfunctional, but rather clarified that Plaintiffs may have a protectable trade dress in the
overall “look and feel” of the show, even if the individual elements
of the show are functional. (Id. at 2.)

App. 26
judgment in favor of Defendants on Plaintiffs’ claims
for trade dress infringement is appropriate.
B. False Advertising
Plaintiffs assert a claim for false advertising in violation of the federal Lanham Act, 15 U.S.C. § 1125.
(TAC ¶¶ 124–28.) The elements of a Lanham Act false
advertising claim are:
(1) a false statement of fact by the defendant
in a commercial advertisement about its own
or another’s product; (2) the statement actually deceived or has the tendency to deceive a
substantial segment of its audience; (3) the
deception is material, in that it is likely to
influence the purchasing decision; the defendant caused its false statement to enter interstate commerce; and the plaintiff has been
or is likely to be injured as a result of the false
statement, either by direct diversion of sales
from itself to defendant or by a lessening of
the goodwill associated with its products.
Southland Sod Farms v. Stover Seed Co., 108 F.3d
1134, 1139 (9th Cir. 1997).
In support of their claim, Plaintiffs allege Defendants make the following false statements regarding
Arthro-7: (1) “100% natural herbal,” (TAC ¶¶ 44–45),
(2) “Over 8 Million Bottles Sold!” (id. ¶ 46), (3) the
product is endorsed by a doctor and “Doctor Recommended,” (id. ¶¶ 47–49), and (4) the product is clinically tested and “[p]ositive results utilizing Arthro-7

App. 27
have been supported by a UCLA researcher,” (id. ¶¶ 48,
56). Plaintiffs also complain that Defendants fail to
disclose that individuals who “use or handle” Arthro-7
are exposed to lead and other dangerous materials. (Id.
¶ 55.) The Court considers each alleged false statement in turn.
1. “100% natural herbal”
Plaintiffs allege it is false to advertise Arthro-7 as
“100% natural herbal” because the product contains
animal products. (TAC ¶ 44.) Plaintiffs refer specifically to an advertisement that Defendants ran in a
newspaper in 2013, which contains the following
phrase in Vietnamese: “100% tu duoc thao thien nhien.”
(Id. Ex. 3.) Plaintiffs claim that this phrase translates
to “100% natural herbal.” (TAC ¶ 44.)
Defendants argue that Plaintiffs’ translation of
the phrase is incorrect. Defendants argue that “duoc
thao,” means “dietary supplement,” not “herbal.” (Dkt.
240-2 at 22.) In support, Defendants provide the deposition testimony of Joseph Nguyen, who testified that
“duoc thao” means “dietary supplement.” (Nguyen
Depo. at 241:11–23.) However, Nguyen has also submitted a declaration stating that the full phrase, “100%
tu duoc thao thien nhien” means “100% from natural
herb.” (Dkt. 268 Ex. 29 ¶ 51.) There is therefore a disputed issue of fact as to the translation of Defendants’
advertisement, and whether it is false.
Nevertheless, summary judgment for Defendants
is still appropriate because there is no evidence that

App. 28
Plaintiffs were in any way harmed by this limited advertisement. Plaintiffs “ordinarily must show economic
or reputational injury flowing directly from the deception wrought by [Defendants’] advertising; and that
that occurs when deception of consumers causes them
to withhold trade from [Plaintiffs].” Lexmark Int’l, Inc.
v. Static Control Components, Inc., 572 U.S. 118, 133
(2014). Here, there is no evidence that Plaintiffs suffered any economic or reputational injury from the
“100% natural herbal” advertisement. In fact, Defendants present evidence that Plaintiffs suffered no lost
profits between 2013 and 2014, when the advertisement ran in the newspaper, because Plaintiffs’ sales of
JN-7 Best actually increased in that time period. Specifically, Defendants submit Plaintiffs’ detailed sales
records of JN-7 Best from April 2012 to March 2017.
(Dkts. 243-19–243-23.)
Plaintiffs do not dispute the authenticity or accuracy of these sales records. Moreover, Plaintiffs provide
no other evidence from which any reasonable trier of
fact could conclude Plaintiffs were injured or likely to
be injured in any way by Defendants’ advertisement.
Plaintiffs only submit a statement from an expert indicating that “various statements on the Arthro-7
package are misleading and have a positive impact on
a consumer’s likelihood of purchasing Arthro-7.” (See
Dkt. 249-1 [Pls.’ Response to Defs.’ Statement of Undisputed Facts, hereinafter “SUF”] ¶ 93.) This expert
opinion goes to whether the advertisement is misleading, but does not explain how Plaintiffs have been

App. 29
injured or are likely to be injured from any of the purportedly misleading statements.
2. “Over 8 Million Bottles Sold!”
Defendants’ advertisement indicating that they
have sold over 8 million bottles of Arthro-7 is not false.
Defendants submit a summary chart of all the sales of
Arthro-7 beginning in 1998 and ending in 2017. (Dkt.
160-25.) This chart shows that 8,842,335 bottles of
Arthro-7 were sold in that time period. (Id.) Alberto
Miranda, an employee of Defendant US Doctors’ Clinical who manages the database of sales for Arthro-7,
testified in his deposition that Defendants produced in
discovery over 40,000 pages of detailed sales records
beginning in 1998 to show how many bottles have been
sold. (Dkt. 241-28 [Deposition of Alberto Miranda] at
12:10–19, 48:3–14.) Miranda confirmed that the database reflected total sales of 8,842,335 bottles from July
7, 1998 to October 10, 2017. (Id. at 70:23–71:22.)
Plaintiffs argue that Defendants’ sales records
are unreliable because Defendants’ employees have
testified that they do not know how many bottles of
Arthro-7 have been sold. For example, Plaintiffs point
to deposition testimony from Defendant Tuong Nguyen,
the owner of Nutrivita Laboratories. (Dkt. 268 Ex. 14
at 57:22–58:17.)2 When Tuong Nguyen was asked
how many bottles of Arthro-7 have been sold, he said
that he did not remember and could not provide an
2

This deposition was taken in the prior case between the
parties, which was filed in 2013.

App. 30
estimate. (Id.) This testimony does not create a disputed issue of fact as to whether 8 million bottles of
Arthro-7 have been sold. Tuong Nguyen’s testimony
does not contradict the 40,000 pages of sales records
provided by Miranda, the custodian of those records,
which show over 8 million bottles have been sold.
Tuong Nguyen only testified that he did not know how
many bottles had been sold—he did not testify that
less than 8 million bottles had been sold.
3 & 4. “Doctor Recommended” and tested
by a “UCLA Researcher”
Plaintiffs claim that Arthro-7’s packaging contains several false statements. The package states
that Arthro-7 is “clinically tested” and “Doctor Recommended,” and that “Positive results utilizing Arthro-7
have been supported by a UCLA researcher.” (TAC Ex.
5.) The packaging also has a picture of a man in a
doctor’s coat, identified as “Dr. John E. Hahn, Board
certified foot surgeon.” (Id.) Plaintiffs argue that the
picture and description of Dr. Hahn is misleading because Dr. Hahn is a Doctor of Podiatric Medicine, and
not a Medical Doctor.
Defendants submit evidence showing that each of
the statements on the package are true. Defendants
submit a March 27, 2013, article published in a journal
called Nutrition and Dietary Supplements. (Dkt. 2408.) The article publishes the results of a 12-week clinical study conducted in Shanghai, China. (Id.) Four of
the ten authors of the article are from the Department

App. 31
of Pathology and Laboratory Medicine at the David
Geffen School of Medicine at the University of California at Los Angeles. (Id.) The article provides evidence
that Arthro-7 is clinically tested, and positive results
from Arthro-7 are supported by the research of researchers at UCLA. (Id.) Plaintiffs nevertheless argue
that the statements that Arthro-7 is “clinically tested”
and “supported by a UCLA researcher” are false or
misleading, because the studies took place in China.
(Dkt. 249 at 13.) Plaintiffs’ argument is without merit.
Nothing on the Arthro-7 package denies that the studies took place in China.
The parties do not dispute that Dr. Hahn is a
Board-certified podiatrist. Plaintiffs claim that describing him as a “doctor” is false, however, because
Dr. Hahn’s podiatry license has expired and he is not a
medical doctor. But a podiatrist is a doctor of podiatric
medicine who is qualified by education and training to
diagnose and treat conditions affecting the foot, ankle,
and related structures of the leg. Plaintiffs provide no
admissible evidence showing that “doctor” necessarily
means one who is currently licensed or one who has a
medical degree. Plaintiffs instead simply refer to hearsay opinions, including the opinion of the “Attorney
General of the state of California that podiatrists are
not physicians,” and a segment from the television
show, Seinfeld, for the proposition that “people do not
think podiatrists are doctors.” (SUF ¶ 88.) This evidence is clearly inadmissible hearsay and insufficient
to defeat summary judgment.

App. 32
5. Exposed to Lead and Other Statements
Plaintiffs also complain about a number of other
statements claiming that Arthro-7 is safe. Plaintiffs
claim that Defendants fail to disclose, for example, that
there are “toxic lead levels” in Arthro-7. Plaintiffs also
claim that Defendants falsely represent that Arthro-7
contains no heavy metals and is “GMP Compliant.”
(Dkt. 249 at 13–14.) As an initial matter, Defendants
did not address these alleged false advertisements
because most of them are not included in the Plaintiffs’
TAC. In any event, Plaintiffs offer no admissible evidence that these alleged false advertisements are in
fact false or misleading. Plaintiffs only cite to allegations in other lawsuits involving Arthro-7. (Dkt. 249 at
13 n.13, 14 n.15.) These allegations are not evidence—
they are merely inadmissible hearsay allegations.
Without more, Plaintiffs have failed to present any evidence to support their claim that these advertisements are false.
C. Trade Secrets Misappropriation
Plaintiffs bring two claims for trade secrets misappropriation: claim 4 for theft of trade secrets under
the federal Defend Trade Secrets Act, (TAC ¶¶ 131–
32), and claim 5 for theft of trade secrets under the
California Uniform Trade Secrets Act, (id. ¶¶ 133–35).
Plaintiffs identify four categories of purported trade
secrets: Plaintiffs’ customer lists, employee information, vendor information, and “jewelry photographic
technique.” (SUF ¶ 36.)

App. 33
To prevail on their trade secrets misappropriation
claims, Plaintiffs must show they have a legally protectable trade secret that has been misappropriated
by Defendants. See Cal. Civ. Code § 3426.1(b); 18 U.S.C.
§ 1832. To prove that information constitutes a legally
protectable trade secret, Plaintiffs must first demonstrate that they took reasonable steps to keep the information confidential. See Cal. Civ. Code § 3426.1(d);
18 U.S.C. § 1839(3). To prove misappropriation of that
trade secret, Plaintiffs must show that Defendants acquired the trade secret by improper means, or disclosed or used the trade secret without consent. See
Cal. Civ. Code § 3246.1(b); 18 U.S.C. § 1839(5).
Plaintiffs have failed to show that Defendants
misappropriated the four alleged trade secrets. First,
Plaintiffs offer no evidence that their customer lists
were kept confidential. VBS Television’s CEO, Joseph
Nguyen, admitted and Defendant Tram Ho confirmed
that VBS Television provided its customer lists to its
vendors, who then delivered products to the Show’s
customers. (Nguyen Depo. 184:19–185:13; Dkt. 256
Ex. 170 [Deposition of Tram Ho, hereinafter “Ho
Depo.”] at 180:24–181:2.) For this claim, Plaintiffs rely
on the conclusory declaration of Aleksei Lam, with
whom Plaintiffs had a vendor agreement. (SUF ¶ 3
[citing Dkt. 256 Ex. 160].) Lam states that VBS Television has “always” had a contractual understanding,
whether written or oral, with its vendors to “protect
the confidentiality . . . of VBS’ customers’ [sic] lists
and customer information.” (Dkt. 256 Ex. 160 ¶¶ 6–7.)
However, Lam’s declaration is hearsay with respect to

App. 34
his statements about agreements between VBS Television and other vendors, and his own vendor agreement
contains no confidentiality agreement. (See Dkt. 256
Ex. 162 at 17.) The other vendor agreements cited by
Plaintiffs likewise contain no confidentiality provisions. (Dkt. 256 Ex. 162 at 33–69.) Because Plaintiffs
have failed to show that the customer lists were kept
secret, the customer lists cannot constitute a protectable trade secret. See Ruckelshaus v. Monstanto Co., 467
U.S. 986, 1002 (1984) (stating that “[i]f an individual
discloses his trade secret to others who are under no
obligation to protect the confidentiality of the information, or otherwise publicly discloses the secret, his
property right is extinguished”) (internal citations
omitted).
As for VBS Television’s employee information,
Plaintiffs have failed to show what specific employee
information was confidential or how it was allegedly
misappropriated. Plaintiffs argue that Defendant
Tram Ho was “[a]rmed with VBS’ confidential employee information,” which she used to “poach[ ]” VBS
employees through promises of higher compensation.
(Dkt. 249 at 25–26.) In response to this claim, Show
Defendants produced their database of employee files
so that Plaintiffs could cross-check the information
with Plaintiffs’ own employee database. (SUF ¶ 51.)
However, Plaintiffs have still made no showing that
Show Defendants possess any information on Plaintiffs’ employees, much less confidential information.
Employees are allowed to share their salary with competitors and negotiate better compensation packages.

App. 35
Plaintiffs have failed to show that their employee
compensation information is a legally protectable
trade secret, let alone that Defendants acquired any
information through improper means.
Plaintiffs have also failed to show that Defendants
misappropriated any confidential vendor information.
Plaintiffs allege that vendor information such as “vendor names, personal contact information such as email
address[es] and cell phone numbers, and individual
contacts at vendor companies,” among other things,
constitute trade secrets. (Id. ¶ 36.) However, anyone
watching the Fight Price Show can see the vendor’s
name and find its contact information. (See Dkt. 268
Ex. 10.) Plaintiffs also cite a series of documents that
Defendant Tram Ho produced to Plaintiffs that contain
vendors’ ad revenue, advertising contracts, and sales
reports. (Dkt. 249 at 26 [citing Dkt. 256 Exs. 161–66].)
However, Plaintiffs fail to show that these documents
were kept secret, or that Defendants disclosed the documents or acquired them through improper means.
Three of the cited documents are spreadsheets of vendor sales and revenue from 2014 to 2015. (See Dkt. 256
Exs. 161, 164, 165.) Tram Ho testified that she was required to take daily notes on vendor sales and revenue
while working at VBS. (Ho. Depo. 253:21–254:20.) On
a monthly basis, she would then type those notes into
a single spreadsheet and throw the handwritten notes
away. (See id.) Plaintiffs fail to present any evidence of
how Tram Ho acquired this information, the product of
her daily notes at VBS, through improper means. Nor
do Plaintiffs show that Defendants or Tram Ho used or

App. 36
disclosed this information. Tram Ho produced the information in response to Plaintiffs’ requests because it
was already on her computer. (See id.) No evidence was
presented that she improperly took the information
home with her when she left VBS to misappropriate it.
The other vendor document found in Tram Ho’s possession was a sales commission report for December 2014
to July 2015, (Dkt. 256 Ex. 163), which Tram Ho testified was given to her by a VBS employee so she could
“calculate her pay amount,” (Ho Depo. 251:20–252:7).
The last vendor document Plaintiffs cite is a series of
VBS advertising contracts from 2014. (Dkt. 256 Ex.
162.) Although these documents were created by VBS,
Plaintiffs fail to show how they were kept confidential.
Plaintiffs also fail to present any evidence that Tram
Ho used the documents or acquired them through improper means. Plaintiffs’ conclusory and unsupported
allegation that the contracts were “acquired through
improper means,” (Dkt. 249 at 26), is not evidence of
trade secrets misappropriation.3

3

Given the weakness of their trade secrets misappropriation
claims, Plaintiffs resort to unsubstantiated character attacks on
Defendant Tram Ho. (See Dkt. 249 at 25 [“Tram Ho is a proven
pathological liar” whose “lies do not provide a basis for summary
adjudication.”].) Plaintiffs cite to Tram Ho’s purported “admission” of “getting caught in lie after lie” when, in her deposition,
she acknowledged she might have made a mistake in entering
information on her LinkedIn profile. (Dkt. 250 Ex. 170 at 65–68.)
Plaintiffs then cite to Tram Ho’s “deposition in full” as evidence
of her “lies.” (Dkt. 249 at 25.) The Court does not make credibility
determinations, nor weigh conflicting evidence at the summary
judgment stage. Eastman Kodak Co., 504 U.S. at 456. Further,
such conclusory and speculative allegations in moving papers are

App. 37
Finally, Plaintiffs fail to show that their “jewelry
photographic technique” constitutes a protectable
trade secret. (See TAC ¶ 36.) As evidence of VBS’
“unique technique to display and photograph the jewelry,” Plaintiffs cite Aleksei Lam’s declaration. (SUF
¶ 56 [citing Dkt. 256 Ex. 160 ¶ 16].) However, the Lam
declaration does not mention lighting technique or
camera angles. (See Dkt. 256 Ex. 160 ¶ 16.) Plaintiffs
also cite deposition testimony of Joseph Nguyen in
which he states that the “technique when you use [sic]
iPad or iPhone and you light it up and then shoot it
into the diamond, they will make into [sic] different
light.” (SUF ¶ 56 [citing Nguyen Depo. 133:2–8].) However, Nguyen admits, moments later, that if “you go to
the jewelry store, they have the same concept. They
have the light, you know, shining down on the diamond.” (Nguyen Depo. 133:9–15.) In other words, the
Show Defendants employ conventional lighting techniques used across the industry and in jewelry stores.
The lighting technique is not a secret, and the Plaintiffs have failed to show they took any steps to keep it
confidential.
D. Interference with Contractual Relationships & Economic Advantage
Plaintiffs bring two interference claims: claim 10
for interference with contractual relationships under
California law, (TAC ¶¶ 146–47), and claim 11 for
insufficient to defeat summary judgment. See Thornhill, 594 F.2d
at 738.

App. 38
interference with prospective economic advantage under California law, (id. ¶¶ 148–49). In support of claim
10, Plaintiffs allege that Defendant KVLA lured Tram
Ho from the Fight Price on Television Show to host the
Diamond Show in breach of her contract. (Id. ¶¶ 67,
147.) For claims 10 and 11, Plaintiffs further allege
that Show Defendants interfered with Plaintiffs’ relationships with certain employees and their vendor,
Kim Cuong Jewelry. (Id. ¶¶ 147, 149.)
To prove a claim of intentional interference with
contractual relationships, a plaintiff must show (1) a
valid contract between plaintiff and a third party, (2)
defendant’s knowledge of this contract, (3) defendant’s
intentional acts designed to induce breach or disruption of the contractual relationship, (4) actual breach
or disruption of that relationship, and (5) damages.
Pac. Gas & Elec. Co. v. Bear Stearns & Co., 50 Cal. 3d
1118, 1126 (1990).
Plaintiffs have failed to show that Defendant
KVLA interfered with Tram Ho’s contractual relationship with VBS Television. The parties do dispute
whether Tram Ho was under an employment contract
at the time she left VBS Television in March 2016.
(SUF ¶¶ 57–58, 60.) Defendants cite deposition testimony of Thu Thi Nguyen, the president of VBS Television, in which he states that Tram Ho’s contract with
the company ended on March 31, 2016. (Dkt. 241 Ex. 3
at 83:18–25; 89:13–22.) Plaintiffs cite a signed agreement between VBS Television and Tram Ho dated July
15, 2015 that provides for a one-year employment term
ending on July 30, 2016. (TAC Ex. 13.) However,

App. 39
Plaintiffs also allege in their TAC that at some point
in 2016, “VBS agreed to re-negotiate Tram’s compensation package after a review period of six months. But
when that time came, Tram just walked away” from
VBS Television. (TAC ¶ 66.)
Regardless of whether Tram Ho’s employment
contract was still in effect when she left in March 2016,
Plaintiffs’ interference claim with respect to Tram Ho
nevertheless fails because Plaintiffs have offered no
evidence that Defendants intentionally induced breach
of any purported contract between Tram Ho and Plaintiffs. Tram Ho did not quit (and allegedly breach her
contract) because Defendant KVLA “poached” her or
otherwise interfered with her relationship with Plaintiffs. (See FAC ¶ 147.) Tram Ho testified in her deposition that she left VBS Television because she was being
sexually harassed by Joseph Nguyen, the Chief Executive Officer and Chairman of VBS and then-Catholic
priest. Tram Ho said that Nguyen “grabbed [her]
boobs, put his hands on [her] butt and then put his
hands into [her] groin area.” (Ho Depo. at 71:17–21.)
Because she “could not stand” his offensive and illicit
conduct, she “had to quit” her position at VBS Television. (See id.) Indeed, Nguyen admitted in his deposition that he was forced to leave his parish and the
priesthood because of this conduct. (Nguyen Depo.
19:20–21:25.) Plaintiffs submit no evidence showing
that Defendant KVLA induced Tram Ho to leave VBS.
The only evidence before the Court indicates that she
left of her own volition to escape sexual harassment at

App. 40
the hands of VBS’ Chief Executive Officer and Chairman, Joseph Nguyen.
Plaintiffs have also failed to present any evidence
that Show Defendants interfered with other employee
contracts. Plaintiffs allege that Show Defendants interfered with contractual relationships with other
VBS Television employees, including Cuong Nguyen,
Thang Nguyen, and Tran Van Chi. (SUF ¶ 65.) However, Plaintiffs have provided no evidence of employment contracts with these individuals. Nguyen even
testified that some of these individuals were contractors and not employees. (Nguyen Depo 407:1 1 12)
Without employment contracts the employees who left
VBS Television were at will and could leave whenever
they chose. Even if there were any verbal contracts
with these employees, which Plaintiffs have not
shown, there is no evidence that Show Defendants had
knowledge of them or induced their breach. (SUF
¶ 67.) Further, Nguyen testified that Cuong Nguyen
left VBS Television to return to Vietnam, (Nguyen
Depo. 382:10–14), Thang Nguyen left because he asked
for a raise but was turned down, (id. 384:9–15), and
Tran Van Chi left to help his son open an office in San
Francisco, (id. 390:16–20). Plaintiffs have failed to
show that they had contracts with these employees, let
alone that Show Defendants interfered with those contracts and lured the employees away.
Finally, Plaintiffs have not offered evidence that
Show Defendants interfered with a contractual relationship with Plaintiffs’ vendor, Kim Cuong Jewelry.
Nguyen admitted that VBS Television did not have any

App. 41
exclusive agreement with Kim Cuong Jewelry under
which Kim Cuong Jewelry would supply jewelry only
to VBS Television. (Nguyen 410:20–411:2.) Although
Kim Cuong Jewelry entered into advertising agreements with Plaintiffs, it was free to provide its merchandise to other shows. (See id; Dkt. 250 Ex. 38
[advertising agreements].) In contracting with Kim
Cuong Jewelry, Show Defendants did not interfere
with or induce a breach of any agreement between
Kim Cuong Jewelry and Plaintiffs. Plaintiffs presented
no evidence to suggest otherwise.
Plaintiffs also allege that Show Defendants interfered with their economic advantage by disrupting
Plaintiffs’ relationships with certain employees and
their vendor, Kim Cuong Jewelry. (Id. ¶¶ 147, 149.) In
order to prevail on a claim for intentional interference
with prospective economic advantage, a plaintiff
must prove (1) an economic relationship between the
plaintiff and some third party with the probability of
future economic benefit, (2) defendant’s knowledge of
the relationship, (3) intentional acts, apart from the interference itself, by defendant designed to disrupt the
relationship, (4) actual disruption of the relationship,
and (5) economic harm to the plaintiff. CRST Van
Expedited v. Werner Enter., Inc., 479 F.3d 1099, 1108
(9th Cir. 2007). In California, the primary difference
between a claim for interference with contractual relationships and a claim for interference with economic
advantage is that under the latter, a plaintiff must also
“allege an act that is wrongful independent of the interference itself.” Id. at 1108. An act is independently

App. 42
wrongful if it is unlawful under “some constitutional,
statutory, regulatory, common law, or other determinable legal standard.” Id. at 1109.
Plaintiffs have failed to show that Show Defendants engaged in any independently unlawful acts to
disrupt Plaintiffs’ relationships with its vendors or
employees. To prevail on this claim, Plaintiffs must
prove that the Defendants committed “intentional acts,
apart from the interference itself.” See id. at 1108 (emphasis added). However, Plaintiffs have failed to allege that Defendants committed any illegal acts other
than Plaintiffs’ conclusory and unsubstantiated claims
that Defendants stole trade secret information. (Dkt.
249 at 29.) Since Plaintiffs failed to present any evidence of trade secrets misappropriation under California and federal law, any claims for interference with
prospective economic advantage based on trade secrets
misappropriation likewise fail. See First Advantage
Background Servs. Corp. v. Private Eyes, Inc., 569
F. Supp. 2d 929, 936 (N.D. Cal. 2008).
E. Antitrust
Plaintiffs bring two antitrust claims: claim 8 for
antitrust violations under sections 1 and 2 of the Sherman Act, (TAC ¶¶ 142–43), and claim 9 for antitrust
violations under the California Cartwright Act, (id.
¶¶ 144–45). In support of these claims, Plaintiffs allege
that Defendants conspired to take away VBS’ employees, illegally restrain trade in the Vietnamese and general market place by attempting to eliminate JN-7

App. 43
Best as a competitor to Anthro-7, file a “sham litigation” against VBS in this Court, and unlawfully promote Anthro-7 through deceptive false advertising and
price-fixing. (Id. ¶¶ 4–12.)
To prevail on a claim for a Sherman Act section 1
violation, a plaintiff must show that (1) there was an
agreement, conspiracy, or combination between two
or more entities, (2) the agreement was an unreasonable restraint of trade, and (3) the restraint affected interstate commerce. Am. Ad Mgmt., Inc. v. GTE Corp.,
92 F.3d 781, 784 (9th Cir. 1996). To establish a Sherman Act section 2 violation for attempted monopolization a plaintiff must demonstrate (1) specific intent to
control prices or destroy competition, (2) predatory or
anticompetitive conduct directed at accomplishing
that purpose, (3) a dangerous probability of achieving
“monopoly power,” and (4) causal antitrust injury.
McGlinchy v. Shell Chem. Co., 845 F.2d 802, 811 (9th
Cir. 1988). The California Cartwright Act is the primary state antitrust law and mirrors the Sherman Act.
See Marin County Bd. of Realtors, Inc. v. Palsson, 16
Cal. 3d 920, 925 (1976) (“A long line of California cases
has concluded that the Cartwright Act is patterned after the Sherman Act,” and “federal cases interpreting
the Sherman Act are applicable to problems arising
under the Cartwright Act.”).
To the extent that Plaintiffs’ antitrust claims are
based on Defendants’ alleged trade secrets misappropriation, trade dress infringement, and false advertising, the antitrust claim fails for the same reasons
stated above. This leaves Plaintiffs’ assertion that the

App. 44
Defendants’ prior lawsuit was a “sham litigation” intended to put VBS out of business. (TAC ¶¶ 5, 22,
88–103.) In the prior lawsuit, Defendant Nutrivita
Laboratorie alleged that the JN-7 dietary supplement
infringed the Anthro-7’s trade dress and other intellectual property. Nutrivita Labs., Inc. v. VBS Distribution,
Inc., et al., 160 F. Supp. 3d 1184 (C.D. Cal. 2016). However, this Court already expressly rejected VBS’ claim
that the litigation was baseless. (See Dkt. 136–2 at
14:6–7 [“[T]here is no reason to believe that the lawsuit
was frivolous or the filings improper.”].) On appeal, the
Ninth Circuit affirmed this Court’s finding, noting
“there was no evidence in the record to support a finding of bad faith, and Nutrivita’s complaint as a whole
was meritorious.” (Dkt. 136–3 at 3.) Plaintiffs have already attempted this argument and failed. It does not
resurrect their antitrust claims here.
F. Unfair Competition
Plaintiffs bring two unfair competition claims:
claim 1 for unfair competition under the Lanham Act,
(TAC ¶¶ 119–23), and claim 3 for unfair competition
under California common law, (id. ¶¶ 129–30.) Plaintiffs do not allege any separate facts in support of these
claims. They appear to be catch-all claims dependent
on Plaintiffs’ claims for trade dress infringement.
These claims fail for the same reasons Plaintiffs’ others claims fail.

App. 45
G. Breach of Fiduciary Duty
Plaintiffs assert a claim for breach of fiduciary
duty under California law against Defendant Tram Ho.
(TAC ¶¶ 152–53.) Specifically, Plaintiffs allege that
Tram Ho breached her “fiduciary duty of trust, confidence, and loyalty owed to Plaintiffs.” (Id.) Defendants
did not move for summary judgment on this claim or
on the claim for civil conspiracy, discussed below. Instead, Defendants moved for judgment on the pleadings pursuant to Federal Rule of Civil Procedure 12(c).
(Dkt. 239.)
On a motion for judgment on the pleadings, the
Court is limited to material included in the pleadings.
See Yakima Valley Mem. Hosp. v. Wash. State Dep’t of
Health, 654 F.3d 919, 925 n.6 (9th Cir. 2011). Where
the Court exercises its discretion to consider material
outside of the pleadings, it must convert the motion for
judgment on the pleadings to a motion for summary
judgment. Fed. R. Civ. P. 12(d) (“If, on a motion under
Rule 12(b)(6) or (12)(c), matters outside the pleadings
are presented to and not excluded by the court, the
motion must be treated as one for summary judgment.”). Plaintiffs’ claims for breach of fiduciary duty
and civil conspiracy are entirely premised on the conduct alleged in Plaintiffs’ claims for trade secrets
misappropriation and interference with contractual
relationships. The parties have had multiple opportunities to brief and develop the evidentiary record regarding the conduct underlying those claims. The
Court exercises its discretion to consider that evidence

App. 46
here, and converts Defendants’ motion for judgment on
the pleadings into a motion for summary judgment.4
To prove a claim for breach of fiduciary duty under
California law, a plaintiff must show (1) existence of a
fiduciary duty, (2) breach of the duty, and (3) resulting
damages. Pellegrini v. Weiss, 165 Cal. App. 4th 515, 524
(2008); Mattel, Inc. v. MGA Entm’t, Inc., 782
F. Supp. 2d 911, 988 (C.D. Cal. 2011). “While breach of
fiduciary duty is a question of fact, the existence of [a]
legal duty in the first instance and its scope are questions of law.” Kirschner Brothers Oil, Inc. v. Natomas
Co., 185 Cal. App. 3d 784, 790 (1986) (internal citation
omitted). “[B]efore a person can be charged with a fiduciary obligation, he must either knowingly undertake to act on behalf and for the benefit of another, or
must enter into a relationship which imposes that undertaking as a matter of law.” City of Hope Nat’l Med.
Ctr. v. Genentech, Inc., 43 Cal. 4th 375, 386 (2008).
The Court takes pause before addressing whether
Tram Ho, the victim of sexual harassment at the hands
4

Rule 12(d) requires that the parties have “a reasonable opportunity to present all the material that is pertinent” to the converted motion for summary judgment. Fed. R. Civ. P. 12(d). The
material pertinent to the converted motion for summary judgment on the breach of fiduciary duty and civil conspiracy claims
is the material allegedly underlying Plaintiffs’ misappropriation
and interference claims. In light of the three rounds of briefing
and hundreds of exhibits submitted on motions for summary
judgment on those other claims, (Dkts. 174, 216, 249), Plaintiffs
have been given ample opportunity to present evidence on the
conduct underlying the breach of fiduciary duty and civil conspiracy claims.

App. 47
of VBS’ CEO and Chairman, owed VBS any fiduciary
duties of “trust, confidence, and loyalty” in return. (See
TAC ¶¶ 152–53.) Plaintiffs claim that Tram Ho’s employment contract purportedly in effect when she left
VBS Television showed that she was “not a mere employee,” but rather a manager of VBS Television. (Dkt.
245 at 17 [citing TAC ¶ 64, Ex. 13 ¶ 3].) The cited portion of the employment agreement describes Tram Ho’s
five duties as (1) “[p]romoter and coordinator of diamond and jewelry auction programs broadcasting on
Tuesdays and Thursdays each week,” (2) “[s]olicitor of
advertisements and sponsorship from businesses,” (3)
“[a]nchorwoman for news broadcasting when needed,”
(4) “[p]roducer of ‘Hue Thuong’ show,” and (5) “[a]ssisting to produce the ads when needed.” (Id. ¶ 3.)5
Plaintiffs have failed to show that Tram Ho had a
fiduciary relationship with Plaintiffs as a matter of
law. Relationships imposing a fiduciary duty as a matter of law are those between principal and agent, joint
venturers, attorney and client, and corporate officers
and their corporation. Blatty v. Warner Bros., 2011 WL
13217379, at *8 (Apr. 21, 2011) (quoting Oakland
Raiders v. Nat’l Football League, 131 Cal. App. 4th 621,
5

Plaintiffs also argue in their opposition to Defendants’ motion for judgment on the pleadings that Tram Ho was the “Vice
President of Marketing (an officer) at VBS.” (Dkt. 245 at17.)
However, Plaintiffs never made that allegation in the operative
TAC or exhibits attached thereto, and they fail to cite any other
evidence in their opposition. Further, Tram Ho’s employment
contract explicitly characterizes Tram Ho as an “employee,” not
a director, officer, or executive of VBS Television. (See TAC Ex.
13.)

App. 48
632 (2005)). Plaintiffs rely on one California state appellate case for the assertion that an employee also
owes its employer a fiduciary duty where the employee
“participat[es] in management.” (Dkt. 245 at 16 [citing
Gab Bus. Servs. v. Linsey & Newsom Claim Servs., 83
Cal. App. 4th 409, 422 (2000)].) However, Plaintiffs at
no point show that Tram Ho managed VBS Television.
Tram Ho’s detailed employment agreement, even if it
was in effect at the time she left VBS Television, described Tram Ho as an “employee,” not a director, manager, or officer. (TAC Ex. 13.) Tram Ho’s specifically
outlined duties, such as soliciting advertisements and
promoting jewelry auction programs, do not include
high-level management of the company. (See id.) Tram
Ho did not have a fiduciary relationship with VBS
Television as a matter of law.
Plaintiffs next argue that the confidentiality provisions in Tram Ho’s employment agreement, which required her to “retain the confidentiality of, and not
disclose, valuable trade secret information,” effectively
imposed a fiduciary duty. (TAC ¶ 61.) However, receipt
of confidential information, without more, does not
compel the imposition of a fiduciary duty. City of Hope,
43 Cal. 4th at 391–94; see Goodworth Holdings Inc. v.
Suh, 239 F. Supp. 2d 947, 960 (N.D. Cal. 2002) (“A confidentiality agreement does not give rise to a fiduciary
relationship unless it does so expressly.”). Plaintiffs
also allege that “VBS gave Tram Ho discretion in how
she exercised her job duties” and relied on her “to
competently perform her duties.” (TAC ¶ 65.) Plaintiffs argue that because VBS “placed great trust and

App. 49
confidence” in Tram Ho, Tram Ho owed them a fiduciary duty of trust and confidence in return. (Dkt. 245 at
16–17; see TAC ¶ 61.) Plaintiffs fail to explain how
these vague allegations show that Tram Ho owed a fiduciary duty to Plaintiffs. If granting an employee
discretion to do a job and relying on the employee to
competently perform that job were sufficient, every
employee would owe their employer a fiduciary duty.
See Goodworth Holdings Inc. v. Suh, 239 F. Supp. 2d
947, 960 (N.D. Cal. 2002) (“A fiduciary relationship . . .
does not arise simply because parties repose trust and
confidence in each other.”); Worldvision Enters., Inc. v.
Am. Broadcasting Cos., 142 Cal. App. 3d 589, 595
(1983). Because Plaintiffs fail to show the existence of
a fiduciary duty in the first instance, they cannot prevail on a claim for breach of fiduciary duty.
But putting aside the issue of whether Tram Ho
owed Plaintiffs a fiduciary duty as an employee of
VBS Television, Plaintiffs’ breach of fiduciary duty
claim nevertheless fails because Plaintiffs have not
shown that Tram Ho engaged in any conduct that
would constitute a breach of any duty. Plaintiffs’ claim
for breach of fiduciary duty rests entirely on the misconduct alleged in Plaintiffs’ claims for misappropriation of trade secrets and interference with contractual
relationships. Plaintiffs have had multiple opportunities to present evidence and brief the purported misconduct that forms the basis of those claims. Yet
Plaintiffs failed to present any evidence of trade secrets
misappropriation or interference with contractual

App. 50
relationships.6 Accordingly, Plaintiffs’ derivative claim
for breach of fiduciary duty must also fail.
H. Civil Conspiracy
Plaintiffs assert a claim for civil conspiracy under
California law. (TAC ¶ 151.) Civil conspiracy is not
an independent cause of action, but rather a theory of
vicarious liability under which certain defendants may
be held liable for torts committed by others. Lauter v.
Anoufrieva, 642 F. Supp. 2d 1060, 1097 (C.D. Cal.
2009). In order to invoke vicarious liability, a plaintiff
must allege the formation of a conspiracy to commit
wrongful acts, the commission of the wrong acts, and
the damage resulting from such acts. Id. (citing State
ex rel. Metz v. CCC Info. Servs., Inc., 149 Cal. App. 4th
402, 419 (2007)). Because all of Plaintiffs’ independent
causes of action fail, the vicarious claim for civil conspiracy also fails.
IV. CONCLUSION
Simply put, Plaintiffs’ opposition is one complete
failure of proof. It is nothing more than conclusory and
unsupported allegations of wrongdoing on Defendants’
part. That is not enough to raise a genuine issue of
6

Further, to the extent that Plaintiffs’ breach of fiduciary
duty claim turns on Plaintiffs’ trade secrets misappropriation allegations, the claim is preempted by the California Uniform Trade
Secrets Act. See First Advantage, 569 F. Supp. 2d at 936 (citing
cases holding that common law claims based on misappropriation
of trade secrets are preempted by the California Uniform Trade
Secrets Act).

App. 51
material fact. Accordingly, Defendants’ motion and
converted motion for summary judgment are
GRANTED.7
DATED: September 10, 2018
/s/ Cormac J. Carney
CORMAC J. CARNEY
UNITED STATES
DISTRICT JUDGE

7

Both parties filed applications to file under seal certain documents in relation to Defendants’ motion for summary judgment.
(Dkts. 242, 248, 265.) The only reason cited by the parties to
justify their applications to seal is the parties’ protective order.
As the Court has already explained in length, a mere citation to
the protective order is not sufficient to warrant sealing documents
from the public docket. (Dkt. 227 at 6–7.) The parties’ applications
are therefore DENIED.

App. 52
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
VBS DISTRIBUTION, INC.,
AKA VBS Home Shopping, a
California corporation; VBS
TELEVISION, a California
corporation,
Plaintiffs-Appellants,
v.

No. 18-56317
D.C. No. 8:16-cv01553-CJC-DFM
Central District of
California, Santa
Ana
ORDER

NUTRIVITA LABORATORIES, (Filed Jun. 12, 2020)
INC., a California corporation;
NUTRIVITA, INC., a California
corporation; US DOCTORS
CLINICAL, INC., a California
corporation; ROBINSON
PHARMA, INC., a California
corporation; KVLA, INC., a
California corporation; TUONG
NGUYEN, an individual domiciled in California; TRAM HO,
an individual domiciled in California; JENNY DO, AKA Ngoc
Nu, an individual domiciled in
California,
Defendants-Appellees.
Before: BYBEE, COLLINS, and BRESS, Circuit
Judges.
Judge Collins and Judge Bress voted to deny the
petition for rehearing and the petition for rehearing en

App. 53
banc. Judge Bybee voted to grant the petition for rehearing and recommended denying the petition for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
Appellants’ petition for rehearing and petition for
rehearing en banc, filed May 14, 2020, are DENIED.

App. 54
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
VBS DISTRIBUTION, INC.,
AKA VBS Home Shopping, a
California corporation; VBS
TELEVISION, a California corporation,
Plaintiffs-Appellants,
v.

No. 18-56317
D.C. No. 8:16-cv01553-CJC-DFM
Central District of
California, Santa
Ana
ORDER

NUTRIVITA LABORATORIES, (Filed Jul. 1, 2020)
INC., a California corporation;
NUTRIVITA, INC., a California
corporation; US DOCTORS
CLINICAL, INC., a California
corporation; ROBINSON
PHARMA, INC., a California
corporation; KVLA, INC., a
California corporation; TUONG
NGUYEN, an individual domiciled in California; TRAM HO,
an individual domiciled in California; JENNY DO, AKA Ngoc
Nu, an individual domiciled in
California,
Defendants-Appellees.
Before: BYBEE, COLLINS, and BRESS, Circuit
Judges.

App. 55
Non-party Lungsal International, Inc.’s request
for publication of the Court’s memorandum disposition
(Dkt. No. 66) is DENIED.

App. 56
Lungsal International, Inc.
360 Thor Place
Brea, CA 92821
www.lungsal.com
Tel: (626) 384-1547
stanley.chen@stern.nyu.edu
June 1, 2020

Via USPS First Class Mail

Molly Dwyer, Clerk of Court
Office of the Clerk
U.S. Court of Appeals for the Ninth Circuit
Ninth Circuit James Browning Courthouse
95 Seventh Street, San Francisco, CA 94103
(415) 355-8000
Re: Case No. 18-56317, VBS Distribution, Inc. v. Nutrivita Laboratories, Inc.
Dear Madame Clerk:
I am the General Counsel and Manager of Lungsal International, Inc (Lungsal). Lungsal manufactures and
distributes various consumer products. My interest is
this matter is only that of General Counsel for Lungsal, so that companies like Lungsal can know where
they stand in future litigation in the area of false advertising law.
Under Ninth Circuit Rule 36-4, I request that the
Court publish its disposition in VBS Distribution, Inc.
v. Nutrivita Laboratories, Inc., No. 18-56317. The element of injury is a key question in false advertising
cases under the Lanham Act. The Ninth Circuit’s prior
decisions have sent mixed messages on a plaintiff ’s
burden to show injury. For example, in one case, the
Court stated, “actual evidence of some injury resulting

App. 57
from the deception is an essential element of the plaintiff ’s case.” Harper House, Inc. v. Thomas Nelson, Inc.,
889 F.2d 197, 210 (9th Cir. 1989). Yet more recent cases
state than an inability to show actual damages does
not prevent a false advertising plaintiff from obtaining
monetary recovery. See Southland Sod Farms v. Stover
Seed Co., 108 F.3d 1134, 1146 (9th Cir. 1997); Lindy Pen
Co. v. Bic Pen Corp., 982 F.2d 1400, 1411 (9th Cir. 1993).
The Court’s decision in VBS Distribution provides important clarity to this issue by holding that, to withstand a summary judgment motion, a plaintiff must
present evidence of a quantifiable amount of injury resulting from the alleged false advertising. If published,
the Court’s analysis will provide essential guidance for
future cases involving the same federal issue presented here. I assume that an opinion that clarifies the
circuit’s law on a federal question is usually published.
It would appear to me that the Court’s decision meets
the Ninth Circuit’s criteria for publication of a disposition, and I request that the Court publish its disposition for future litigations to rely upon. See Circuit Rule
36-2(a).
Respectfully,
/s/ Stanley Chen, Esq.
Stanley Chen, Esq.

App. 58
15 USCS § 1125(a)
(a)

Civil action.

(1) Any person who, on or in connection with any
goods or services, or any container for goods, uses in
commerce any word, term, name, symbol, or device, or
any combination thereof, or any false designation of
origin, false or misleading description of fact, or false
or misleading representation of fact, which
(A) is likely to cause confusion, or to cause mistake,
or to deceive as to the affiliation, connection, or association of such person with another person, or as to the
origin, sponsorship, or approval of his or her goods, services, or commercial activities by another person, or
(B) in commercial advertising or promotion, misrepresents the nature, characteristics, qualities, or geographic origin of his or her or another person’s goods,
services, or commercial activities, shall be liable in a
civil action by any person who believes that he or she
is or is likely to be damaged by such act.
(2) As used in this subsection, the term “any person”
includes any State, instrumentality of a State or employee of a State or instrumentality of a State acting
in his or her official capacity. Any State, and any such
instrumentality, officer, or employee, shall be subject to
the provisions of this Act in the same manner and to
the same extent as any nongovernmental entity.
(3) In a civil action for trade dress infringement under this Act for trade dress not registered on the principal register, the person who asserts trade dress

App. 59
protection has the burden of proving that the matter
sought to be protected is not functional.

App. 60
CIRCUIT RULE 36-2. CRITERIA
FOR PUBLICATION
A written, reasoned disposition shall be designated as
an OPINION if it:
(a) Establishes, alters, modifies or clarifies a rule of
federal law, or
(b) Calls attention to a rule of law that appears to
have been generally overlooked, or
(c) Criticizes existing law, or
(d) Involves a legal or factual issue of unique interest
or substantial public importance, or
(e) Is a disposition of a case in which there is a published opinion by a lower court or administrative
agency, unless the panel determines that publication is unnecessary for clarifying the panel’s disposition of the case, or
(f) Is a disposition of a case following a reversal or remand by the United States Supreme Court, or
(g) Is accompanied by a separate concurring or dissenting expression, and the author of such separate expression requests publication of the
disposition of the Court and the separate expression.
(Rev. 1/1/12)

App. 61
CIRCUIT RULE 36-3. CITATION OF UNPUBLISHED DISPOSITIONS OR ORDERS
Not Precedent. Unpublished dispositions and orders
of this Court are not precedent, except when relevant
under the doctrine of law of the case or rules of claim
preclusion or issue preclusion.
Citation of Unpublished Dispositions and Orders Issued on or after January 1, 2007. Unpublished dispositions and orders of this Court issued
on or after January 1, 2007 may be cited to the courts
of this circuit in accordance with FRAP 32.1.
Citation of Unpublished Dispositions and Orders Issued before January 1, 2007. Unpublished
dispositions and orders of this Court issued before January 1, 2007 may not be cited to the courts of this circuit, except in the following circumstances.
(i)

They may be cited to this Court or to or by any
other court in this circuit when relevant under
the doctrine of law of the case or rules of claim
preclusion or issue preclusion.

(ii)

They may be cited to this Court or by any other
courts in this circuit for factual purposes, such
as to show double jeopardy, sanctionable conduct, notice, entitlement to attorneys’ fees, or
the existence of a related case.

(iii)

They may be cited to this Court in a request to
publish a disposition or order made pursuant to
Circuit Rule 36-4, or in a petition for panel rehearing or rehearing en banc, in order to

App. 62
demonstrate the existence of a conflict among
opinions, dispositions, or orders.

